February 15, 1995

IG-1


INFORMATION:    "Audit of Management of the Site Characterization
                 Program at Yucca Mountain"

The Secretary

BACKGROUND:

The Department of Energy (Department) is responsible for
establishing an underground repository to store high-level
nuclear waste. In accordance with the amended Nuclear Waste
Policy Act of 1982, the Department began characterization of the
Yucca Mountain site to assess the feasibility of safely storing
spent fuel and high-level waste for 10,000 years. Site
characterization was originally scheduled to be completed in
1995. Subsequently, the Secretary of Energy changed the plan
completion date to 2001. The purpose of our audit was to
determine if the Department is making adequate progress in
characterizing the Yucca Mountain project.

DISCUSSION:

We found that above-ground testing, which requires the drilling
of deep boreholes to obtain data for analyzing rock and
characterizing the site, will not be completed until 2022, given
current rates of progress. Similarly, below-ground tests,
necessary to provide data for characterizing the site at the
level of the repository, will not be finalized until 2006. We
recommended a critical path analysis and establishment of project
priorities.

The Director, Office of Civilian Radioactive Waste Management,
agreed with the intent of our recommendations and described a new
"program approach" to the Yucca Mountain project. The Director
believes that the new approach will resolve the concerns raised
in this report. Although we did not audit the program approach,
the intended actions described are responsive to the concerns
raised in our report and to the recommendations.

                                  -2-


We note, however, that the program's ultimate success will depend
on acceptance by the Nuclear Regulatory Commission, which must
approve the license application for repository construction.




                               /signed/

                            John C. Layton
                             Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      Assistant Secretary for Defense Programs
      Director, Office of Civilian Radioactive
        Waste Management



                       U. S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL




                     AUDIT OF MANAGEMENT OF THE SITE
               CHARACTERIZATION PROGRAM AT YUCCA MOUNTAIN




The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. As a consequence, this report is available
electronically through the Internet at the following alternative
addresses:
             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

             Department of Energy Headquarters Anonymous FTP
                           vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate audit
report distribution. Your comments would be appreciated and can
be provided on the Customer Comment Form attached to the Audit
Report.




Report Number:     DOE/IG-0366        Western Regional Audit Office
Date of Issue:   February 15, 1995 Albuquerque, New Mexico         87185
                   AUDIT OF MANAGEMENT OF THE SITE
             CHARACTERIZATION PROGRAM AT YUCCA MOUNTAIN



                          TABLE OF CONTENTS



                                                            Page

            PREFACE                                           i

            SUMMARY .....................................     1

PART I    - APPROACH AND OVERVIEW .......................     3

            Introduction ................................     3

            Scope and Methodology .......................     3

            Background ..................................     4

            Observations and Conclusions ................     5

PART II   - FINDING AND RECOMMENDATIONS .................     6

            Site Characterization at Yucca Mountain .....     6

PART III - MANAGEMENT AND AUDITOR COMMENTS ............. 13
                     U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL
                      OFFICE OF AUDIT SERVICES



                   AUDIT OF MANAGEMENT OF THE SITE
             CHARACTERIZATION PROGRAM AT YUCCA MOUNTAIN

                               PREFACE

     The Office of Inspector General completed field work for
this audit in August 1994. According to Office of Civilian
Radioactive Waste Management officials, the Department was
concurrently developing a new program approach for site
characterization at Yucca Mountain. Elements of this approach
were first presented to Congress during the Fiscal Year 1995
budget hearings (in March 1994). According to the Department,
Congress supported the effort by increasing the program budget by
37 percent over the 1994 funding level.

     A "Civilian Radioactive Waste Management Program Plan,"
dated December 19, 1994, stated that implementation of the
program approach was initiated on October 1, 1994. This document
described a completely revised methodology, referred to as the
"program approach," for determining the suitability of the Yucca
Mountain site as an underground repository. The program approach
differs significantly from the original 1988 site
characterization plan which was in place at the time of our audit
work. According to the Department's draft plan, the new program
approach does not require all measurements and analyses in the
site characterization plan before evaluating suitability,
selecting a final design, and submitting a license application to
the Nuclear Regulatory Commission. Instead, it distinguishes
three sets of investigations:

     o   those required for evaluating site suitability;

     o   those required for a license application and the
         completion of cost-effective design; and,

     o   those required for confirming postclosure repository
         performance.

This distinction, according to the Department, permits the
phasing of tests to achieve the early technical site suitability
evaluation and preserves the schedule for licensing,
constructing, and operating the repository should the site be
determined to be suitable.

     Major milestones included in the program approach include
completion of a technical site suitability evaluation by the end
of Fiscal Year 1998 and delivery (if the site is determined to be
suitable) of a site recommendation report to the President during
Fiscal Year 2000. The revised schedule also calls for submittal
to the Nuclear Regulatory Commission of a license application for
repository construction in 2001, the commencement of construction
in 2004, and the Nuclear Regulatory Commission's issuance of a
license to operate the repository in 2008.

                                ii
     The finding and recommendations in our audit report relative
to above- and below-ground testing clearly support the need for a
re-designed approach to site characterization. We agree with the
Director, Office of Civilian Radioactive Waste Management who
stated, in recent testimony before the Nuclear Regulatory
Commission, that Yucca Mountain's original site characterization
program was no longer supportable since it had no apparent
possibility of being funded at required levels and there was
inadequate means for measuring annual cost and progress.
Moreover, we commend the Office of Civilian Radioactive Waste
Management for acknowledging the serious problems that existed in
the site characterization program and for taking action aimed at
returning the program to a schedule that preserves critical
milestones.

     Although no audit verification of the December 19 program
approach documentation was performed, the intended actions
described are responsive to the concerns raised in our report and
to the recommendations. We note, however, that the program
approach's ultimate success will depend on acceptance by the
Nuclear Regulatory Commission, which must approve the license
application for repository construction.

                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL
                        OFFICE OF AUDIT SERVICES



                  AUDIT OF MANAGEMENT OF THE SITE
            CHARACTERIZATION PROGRAM AT YUCCA MOUNTAIN


Audit Report Number:     DOE/IG-0366


                                 SUMMARY


     The Department of Energy (Department) is responsible for
establishing an underground repository to store high-level
nuclear waste. In accordance with the amended Nuclear Waste
Policy Act of 1982, the Department began characterization of the
Yucca Mountain site to assess the feasibility of safely storing
spent fuel and high-level waste for 10,000 years. Site
characterization was originally scheduled to be completed in
1995. Subsequently, the Secretary of Energy changed the planned
completion date to 2001. The purpose of our audit was to
determine if the Department was making adequate progress in
characterizing the Yucca Mountain project.

     We found that above-ground testing, which requires the
drilling of deep boreholes to obtain data for analyzing rock and
characterizing the site, would not be completed until 2022, given
rates of progress and funding as of Fiscal Year 1994. Similarly,
under these assumptions, below-ground tests, necessary to provide
data for characterizing the site at the level of the repository,
would not be finalized until 2006.

     Causes of the delays included insufficient funding and
inadequate prioritization of available resources. The project
baseline, approved in Fiscal Year 1991, included about $1.8
billion for Fiscal Years 1991 through 1994. Only about $809
million, or 45 percent of the approved baseline, however, was
funded. Given the magnitude of this project and the competition
among Departmental programs for available resources, funding
shortfalls were understandable. The Department, however, should
have prioritized project activities more effectively to minimize
delays. Since resources are likely to remain scarce, an
effective prioritization of site characterization activities is
needed to assure that the project stays as close to schedule as
possible.

     We recommended that the Department conduct a critical path
analysis of project activities, establish priorities based on the
analysis, and allocate sufficient resources to accomplish those
activities most critical to the project. Such a process should
lead to the formulation of completion dates for critical project
activities and an approved adjusted baseline for the project.

                                #=2
     The Director, Office of Civilian Radioactive Waste
Management, agreed with the intent of our recommendations and
explained the new program approach to the Yucca Mountain project,
as discussed in the Preface to this report.




                                  Office of Inspector General

                               #=3
                              PART I

                       APPROACH AND OVERVIEW


INTRODUCTION

     The accumulation of highly radioactive waste at over 70
civilian and Department of Energy (Department) nuclear facility
sites in 34 states created an environmental problem addressed in
the Nuclear Waste Policy Act of 1982. The Act made the
Department responsible for developing an underground repository
that was expected to be operational in 1998. In 1991, the
Department estimated that its scientific investigation of a site
at Yucca Mountain, Nevada, could be completed by 2001 at a cost
of about $6.3 billion dollars and that, if the site proved to be
suitable, a repository could be in operation by 2010.
     The audit assessed the effectiveness of two of the major
activities in achieving the milestones for completing site
characterization by the year 2001. Those activities were the
above- and below-ground testing. Specifically, we looked at the
drilling of deep boreholes to obtain information for above-ground
testing, and at tunneling and excavation for the Exploratory
Studies Facility for below-ground testing.

SCOPE AND METHODOLOGY

     The audit was conducted from June 1993 through August 1994,
at the Yucca Mountain Site Characterization Office and at Yucca
Mountain, located about 100 miles northwest of Las Vegas.
Meetings were also held with the Office of Civilian Radioactive
Waste Management in Washington, D.C. and with major participants
in the project, including Department contractors and other
government agencies. During the audit, we reviewed the progress
of the project in relation to the funding and the Nuclear Waste
Policy Act.

     To accomplish the audit objective, we:

     o   reviewed budget information for Fiscal Years 1983-1994;

     o reviewed the project plans to meet the requirements of
the Nuclear Waste Policy Act;

     o interviewed Department, project, contractor and
Government laboratory personnel;
     o analyzed available information on the types of boreholes
and the time required to drill them; and,

     o reviewed prior work of other oversight groups on the
management of the program.

     The audit was performed according to generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy audit objectives.
We limited the review of internal controls because the audit
focused on project management in two of the key activities in
achieving the 2001 date for site characterization. Because the
review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time
of our audit. We did not rely extensively on computer-processed
data and, therefore, did not fully examine the reliability of
that data. Conferences to discuss drafts of this report were
held with the Director, Office of Civilian Radioactive Waste
Management, or his staff, on October 4 and December 16, 1994.

BACKGROUND

     In 1957, the National Academy of Sciences recommended that
the country's high-level radioactive waste be disposed of by
permanent burial in underground repositories. In 1982, the
United States Congress passed the Nuclear Waste Policy Act
establishing a process for evaluating sites for repositories. A
number of potential sites were evaluated in the United States and
the potential locations were eventually narrowed down to three:
Nevada, Washington, and Texas. An amendment to the Act in 1987
further narrowed the siting for the potential repository to the
Yucca Mountain site in Nevada. The Act assigned responsibility
for full payment of disposal costs to those who generated and
benefited from the services.

     To carry out the law, the Department established the Office
of Civilian Radioactive Waste Management. This Office, in turn,
developed a program for a geologic disposal system which
encompassed the transportation of waste, the development of casks
for housing the waste during transport, determining a site for a
Monitored Retrievable Storage System for interim storage, and
determining a suitable location for a permanent repository. The
proposed location for the permanent repository is Yucca Mountain.
If site characterization shows that Yucca Mountain is acceptable,
it would be licensed by the Nuclear Regulatory Commission before
construction begins.

     In June 1994, the Office of Inspector General issued a
report on "Audit of Cost and Management of Yucca Mountain
Project." The purpose of the audit was to examine how
effectively funds were spent and to examine the costs and
management of contracting for the project. The audit identified
three areas for management's attention: Project Procurement
Efforts, Management and Operating Contractor Structure, and
Overhead Reduction Effort.

OBSERVATIONS AND CONCLUSIONS

     Our audit showed that, given the rates of progress and
funding as of Fiscal Year 1994 for above- and below-ground
testing, the Department would not complete site characterization
at Yucca Mountain by the target date of 2001. Above-ground
testing requires the drilling of a number of deep boreholes to
obtain data for analyzing the rock and characterizing the site.
At the 1994 rate of progress, however, Department officials
estimated that drilling would not be completed until the year
2022. Similarly, under the same assumptions, below-ground tests,
necessary to provide data for characterizing the site at the
level of the repository, would not be finalized until 2006.

     Lack of adequate prioritization, in light of the limited
funding available through Fiscal Year 1994, contributed to
testing program delays. The project baseline, approved in Fiscal
Year 1991, included about $1.8 billion for Fiscal Years 1991
through 1994. However, only about $809 million, or 45 percent of
the approved baseline, was funded. Until the Department
effectively prioritizes site characterization activities, the
project will continue to fall further behind and cause an
escalation of costs for the Department and the ratepayers
involved.

     We recommended that the Department conduct a critical path
analysis of project activities, establish priorities based on the
analysis, and allocate sufficient resources to accomplish those
activities most critical to the project. Such a process should
lead to the formulation of completion dates for critical project
activities and an approved adjusted baseline for the project.

     In October 1994, we met with the Director, Office of
Civilian Radioactive Waste Management, who described a new
Departmental approach to the Yucca Mountain project. The
Director believes that the new approach, when finalized, will
ultimately resolve the concerns raised in this report.
                             PART II

                   FINDING AND RECOMMENDATIONS

            Site Characterization at Yucca Mountain

FINDING

     The Nuclear Waste Policy Act of 1982, as amended, required
the Department to characterize Yucca Mountain as a potential
repository for high-level radioactive waste and develop a site
characterization plan. In developing this plan, the Department
originally estimated that site characterization would be
completed by 1995. This date was later extended to 2001 as a
result of a review conducted by the Secretary of Energy. Two key
activities, involving above- and below-ground exploration, were
scheduled to be completed by 1998 in order to meet the site
characterization date. Given the levels of effort and funding as
of Fiscal Year 1994, however, the above- and below-ground
exploration would not be completed until the years 2022 and 2006,
respectively. These activities were behind schedule because they
had not received the necessary priority in light of limited
funding. Until the Department prioritizes the site
characterization activities, the project will continue to fall
further behind and cause an escalation of costs for the
Department and the ratepayers involved.

RECOMMENDATIONS

     We recommend that the Director, Office of Civilian
Radioactive Waste Management:

     1. Conduct a critical path analysis of project activities,
establish priorities based on that analysis, and
allocate sufficient resources to those activities that
are most critical to the timely completion of the
repository program.

     2. Formulate completion dates for site characterization
activities and other critical project activities
included in the above analysis and obtain the proper
approval in order to establish it as the project
baseline.
MANAGEMENT REACTION

     The Director, Office of Civilian Radioactive Waste
Management concurred with the intent of the recommendations
contained in the report. The Director explained a revised
program approach that would accelerate progress on the project
while preserving key schedule milestones. The program approach
is discussed in the Preface to this report.

                       DETAILS OF FINDING

      The Nuclear Waste Policy Act of 1982, as amended, provided
for developing a national repository to dispose of high-level
radioactive waste. The function of a repository system is the
isolation of high-level radioactive waste from the accessible
environment. This objective was to be achieved by selecting a
site with suitable natural barriers to the release of
radionuclides and by providing a system of engineered barriers
that is designed specifically for the conditions present at the
site.

     The Nuclear Waste Policy Act further required the Department
to characterize Yucca Mountain to determine its suitability as a
repository. To do this, models will be developed from
information obtained from deep exploratory drilling into the
unsaturated zone of the mountain, as well as from tests conducted
in the underground tunnels and alcoves. These models will
provide information for repository design and ensure repository
performance. If Yucca Mountain is found suitable as a
repository, the Department must then obtain authorization from
the Nuclear Regulatory Commission to begin construction.
Although the Department's original plans called for Yucca
Mountain to be characterized by 1995, the Secretary of Energy
subsequently changed the planned completion date to 2001.

     A general site characterization plan was prepared with the
technical assistance of the scientific community. The plan was
reviewed by the Nuclear Regulatory Commission, the State of
Nevada, the ratepayers and other interested parties. The Yucca
Mountain Site Characterization Plan was issued in December 1988.
Thus, it represented the expectations of many stakeholders.

     To characterize the site properly, both above- and
below-ground testing is required. Our review focused on two key
activities associated with the above- and below-ground testing:
the deep borehole drilling program and the construction of the
Exploratory Studies Facility, specifically the tunnel boring.
The progress of these activities directly affect the Department's
ability to submit a license application for the construction of
the repository. Other key areas may be delayed if the
information from these activities is delayed.

MEETING THE CHARACTERIZATION SCHEDULE

     We reviewed both the deep exploratory drilling program, an
integral part of above-ground testing, and the construction of
the Exploratory Studies Facility, necessary for below-ground
testing. The results of our work indicated that, at the rates of
progress and funding as of Fiscal Year 1994, the 2001 target date
for site characterization would not be met.
Above-Ground Testing

     Above-ground testing consists of tests performed on the
surface, such as mapping, trenching, and geophysical surveys, as
well as tests performed in boreholes. Exploratory drilling is
used to characterize underground conditions from the surface.
The site characterization plan indicated that as many as 500
boreholes may be needed for site characterization. Although a
majority of these boreholes will be less than 100 feet, the plan
also requires a program for drilling 34 deep boreholes, needed to
characterize the rocks and ground water beneath the surface. The
site characterization plan stated that the 34 deep boreholes
would use a dry drilling method to minimize or avoid
contaminating the surrounding rock in the borehole and the
samples removed from it.

     Management determined that the use of four special drill
rigs were needed to complete the dry drilling of the deep
boreholes. The first rig was acquired in 1992. The second rig
was scheduled to be purchased in 1993 while the third and fourth
rigs were to be purchased in 1994. The four rigs were to operate
24 hours per day 7 days a week, thereby allowing the drilling to
be completed by 1998.

     As of March 1994, however, very little progress had been
made in the deep borehole program. The following chart compares
feet drilled to feet planned for the first three years of the
program.

          Fiscal          Planned               Accomplished
           Year    Per Year     in Total          in Total

          1992      1,500        1,500                800
          1993      5,600        7,100              2,900
          1994     10,500       17,600              3,200

     Although the first drill rig purchased, the LM-300, began
operating in 1992, it was only operated one 8-hour shift per day,
5 days a week. Since 1992, the LM-300 had, as of March 1994,
completed one borehole, partially completed another, (called
UZ-14), and started on a third. Furthermore, the completed
borehole, (UZ-16), was originally intended as a Vertical Seismic
Profiling borehole and was not one of the deep UZ boreholes
designated in the site characterization plan. Because this
borehole was drilled with the LM-300, however, some of the
objectives of the UZ program were accomplished.

     Work on the partially-completed borehole, (UZ-14), began in
April 1993. Although planned drilling was to the water table
plus 40 feet, or about 2,000 feet, the LM 300 drill rig
encountered water at a depth of about 1,250 feet. Tests were
initiated to determine where the water was coming from, how fast
the water was entering the borehole and the chemical composition
of the water. Ultimately, workers were unable to stop the water
from entering the borehole and in February 1994 the LM-300 rig
was moved to a different site to begin drilling the third
borehole. Subsequently, another drill rig was used to drill to a
depth of about 2,200 feet. Current plans are for the LM-300 to
be moved back to the hole at a later date to meet requirements
for instrumentation and testing.

     At the time of this review, the LM-300 had drilled about
3,200 feet, significantly behind the planned drilling schedule of
17,600 feet. Based on that rate of progress, project officials
estimated that it would take over 28 years to complete the deep
borehole drilling program.

Below-Ground Testing

     Construction of the Exploratory Studies Facility (Facility)
is required in order to perform the below-ground testing
necessary to collect and analyze data at the proposed repository.
The Facility will encompass about 13 miles of tunnels, 35
alcoves, and a main test area of about 18.5 acres. The plans for
the Facility involved four milestones: tunneling was to start in
1992; access to the main tunnel was to be accomplished in 1994;
large scale in-situ testing was to begin in 1995; and all
tunnels, alcoves, and main test area were to be completed by
1997. Management planned to acquire and concurrently use four
tunnel boring machines to meet the November 1997 completion date.
Two large machines would concurrently excavate from both ends of
the initial large tunnel, subsequently, two smaller tunnel
machines would concurrently excavate the smaller tunnel.

     During our review we found that the tunneling project
started on schedule in 1992. The second milestone, access to the
main tunnel, however, was delayed. This delay occurred because
the first tunnel boring machine was not delivered until April
1994 and did not begin operating until August 1994. Since the
first machine was needed to excavate access to the main tunnel
and is only expected to bore about 30 meters by the end of the
Fiscal Year 1994, the second milestone cannot be met.

     Additionally, the level of funding provided in Fiscal Year
1993 did not permit simultaneous procurement of the two large
tunnel boring machines and the revised plans no longer show the
two tunnel boring machines working concurrently. Thus, the
opportunity for concurrent excavation was lost. Based on project
estimates as of 1994, it would take about 2 years to complete the
first 5-mile loop of the tunnel, and might take as long as 12
years to complete all of the originally planned below-ground
excavation. As a result, excavation activities which were
scheduled for completion in 1997 would be delayed.

     The third milestone, large scale in-situ testing to
determine the effects of the stored waste on the rock
characteristics, was to be conducted in the main test area
beginning in 1995. However, because of tunneling delays, this
testing would be at least 2 years behind schedule.

     Prior reports, issued by the General Accounting Office and
the Nuclear Waste Technical Review Board, similarly noted that
the underground testing experiments, needed to provide critical
information on the effects of heat from the waste, were falling
behind schedule. The data from these tests are crucial for the
repository license application to the Nuclear Regulatory
Commission.

PRIORITIES AND RESOURCE ALLOCATIONS

     The drilling and the tunnel boring activities were behind
schedule as of 1994 because the Project Office had not
prioritized its activities around the resources available.
Additionally, management had neither requested nor received the
level of funding needed to accomplish the project, as planned.
From Fiscal Years 1991 through 1994, the project received about
$809 million, about 45 percent of the approved baseline funding
level.

     Furthermore, management had not revised its overall plans to
adjust for a shortfall in resources. Instead, the Project Office
continued to pursue the 2001 site characterization date without
prioritizing the activities needed to be accomplished. For
example, the deep borehole drilling program spent about $12
million in researching, developing, and purchasing the first
drill rig. As stated earlier, drilling was a priority activity
and the drill rig was expected to operate 7 days a week 24 hours
per day. Due to the lack of prioritization of important
activities, in light of limited funding, the drill rig was
operated only one shift per day. This scheduling illustrates
that sufficient funding has not always been applied to the
critical activities.

     In this respect, the General Accounting Office issued a
report in May 1993 entitled "Yucca Mountain Project Behind
Schedule and Facing Major Scientific Uncertainties." The report
recommended that the Secretary of Energy review the program's
goals and objectives in the context of the present program's low
funding priority. The report suggested that such a review should
focus on the project's emphasis on the scientific investigation
and how the project can be conducted more efficiently without
sacrificing the technical quality of the investigation.

     The Director, Office of Civilian Radioactive Waste
Management testified during the Fiscal Year 1995 budget hearings
on the new program approach. According to the Department, the
result of that testimony was that Congress increased the
program's Fiscal Year 1995 funding by 37 percent over the Fiscal
Year 1994 level.

EFFECTS OF DELAYS ON REPOSITORY PROGRAM

     As a result of not establishing the priorities necessary to
complete the site investigation activities discussed in this
report, the Department was not going to meet the Secretary's goal
of completing site characterization by the year 2001. Under the
1994 priority/funding approach, these activities would not be
completed until 2022. Not completing the site investigation and
subsequently the characterization by 2001 may result in the
Department and the ratepayers incurring additional costs. In
addition, the Department could be subject to litigation by the
ratepayers for not complying with the Nuclear Waste Policy Act.

     Although the total effect of delayed funding will not be
known for years, it was clear that the project would cost more
and take longer than originally planned. If priorities were not
established, delays would occur not only in site investigation
activities, but also in all repository activities. This
combination of delays would ultimately result in increased costs.

     During our audit, the Secretary announced the initiation of
an independent financial review of the Yucca Mountain Site
Characterization Project Office. Encompassed in the review is
the credibility of project milestones and the adequacy of funding
levels and funding priorities. The results of this review and
our audit should assist the Department as it finalizes the new
program approach.


                             PART III

                  MANAGEMENT AND AUDITOR COMMENTS


     The Director, Office of Civilian Radioactive Waste
Management, concurred with the intent of the recommendations and
provided the Office of Inspector General a "Civilian Radioactive
Waste Management Program Plan," dated December 19, 1994. This
document described a revised approach and schedule for
determining the suitability of Yucca Mountain as a waste
repository. The intended actions described are responsive to the
concerns raised in our report and to the recommendations. We
note, however, that the program approach's ultimate success will
depend on acceptance by the Nuclear Regulatory Commission, which
must approve the license application for repository construction.

     Management further noted that it considers lack of
sufficient funding, rather than failure to prioritize, to be the
principle cause of delays. The Director believes that even if
ll program funds received had been dedicated to site
characterization, the total would have been inadequate to avoid
delays.

                                                    IG Report No. DOE/IG-0366

                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.   What additional background information about the selection, scheduling,
scope, or procedures of the audit or inspection would have been helpful
to the reader in understanding this report?
2.   What additional information related to findings and recommendations
could have been included in this report to assist management in
implementing corrective actions?

3.   What format, stylistic, or organizational changes might have made this
report's overall message more clear to the reader?

4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the
Office of Inspector General, please contact Rob Jacques at (202) 586D3223.
